No. A-

In the

Supreme Court ofthe United States
a

GARYVICTOR DUBIN,
Petitioner,

v
SUPREME COURT OF THE STATE OF HAWAII,
Respondent.
a

DECLARATION OF JOHN D. WAIHEE,
a

GanvVlcron DuerN
Counsel of&ecord
DuerN LRw Onnrcps
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (goa) 537-2300
Facsimile: (808) 523'7733
Cellular: (aos) 392'9191
-MaiI:
gdubin@dubinlaw.net
E

Petitioner
Memben Supreme Court Bar

III

DECLARATION OF JOHN D. WAIHEE.

III

I, JOHN D. WAIHEE, III, DECLARE:
1.

I am a Member

of the Bar of this Court, and

I make the within statements

based upon my own personal firsthand knowledge.

2.I

am a former Governor of the State of Hawaii, having had the privilege of

serving in that position from 1986 through 1994, and before that as Hawaii State

Lieutenant Governor and before that in the Hawaii State Legislature, and my
overriding goal in tife has always been and remains above all else the well'being and
protection of the people of Hawaii.
B. For

that reason alone, I write to you because I have read the September

2020 Disbarment Ord.er of Gary Victor Dubin and personally know

grave error, apparently

in

9,

that that is in

reliance upon the mistaken judgment of staff, and

therefore encourage Your Honor to review this Application personally.
4. In the many positions

I have held in Hawaii Government, I

have met and

interacted with countless Members of the Hawaii Bar, including Mr. Dubin who I
have worked closely with for a number of years and who in my experience without
reservation is among the most honest and most contributing Members of our entire
Iegal community and who d.oes not deserve to be disbarred on this record before you
now
b.

I

say this not only as a knowledgeable friend in support of his character and

his worth as a practicing attorney to this State, and certainly not because of that
friendship alone, but instead because, concerned, I personally sat through the many

prehearing conferences and all seven days of his disciplinary hearings in his case,
witnessing fi.rsthand the abuse he experienced, and I can personally veri$' the truth

of all of his factual representations to this Court in these Application papers,
including my personally eye-witnessing the extraordinary manner in which he was
constantly denied due process of law, as he truthfully summarizes in his Application
now before this Court.

6. Unless he is granted emergency relief by Your Honor, the result will truly
be the shameful and tragic conclusion of one of the most unjust chapters in the legal

history of my State.
7. Mr. Dubin has been the champion of the rights of ordinary people in our

community who are neither wealthy nor influential, as their advocate and without
regard to his own personal financial sacrifices, and most of his cases have been of a

pro bono nature, including the many important appellate decisions he has

secured,

including in this Court.

8.

Some

talk about Access to Justice in my State and elsewhere. Mr. Dubin in

his area of practice has done more than talk about it; through his advocacy he has
created Access to Justice for thousands of Hawaii homeowners without seeking any

personal recognition or monetary or system rewards.

9. A people's practice such as his, however, spawns many irritated and
powerful adversaries and unseen vendettas, not an uncommon experience to many of
us as well in public life, even though he serves as advocate and not decision maker.

10. This is a practice and a people's advocate who this Court should protect

and applaud, not allow him to be disbarred on such a flawed record as now before
you, without a stay and without being heard.

I

declare under penalty of perjury under the laws of the United States of

Am6rica that the foregoing is true and correct. Executed at Honolulu, Hawaii, on
October 24,2020.

/s/John D. Waihee,

IIf

JOHN. D. WAIHEE,

III

